<html>
<title> - 9/11 HEALTH EFFECTS: THE SCREENING AND MONITORING OF FIRST RESPONDERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 9/11 HEALTH EFFECTS: THE SCREENING AND MONITORING OF FIRST RESPONDERS 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                     ORGANIZATION, AND PROCUREMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2007

                               __________

                           Serial No. 110-87

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-063 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

  Subcommittee on Government Management, Organization, and Procurement

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      BRIAN P. BILBRAY, California
CHRISTOPHER S. MURPHY, Connecticut   TODD RUSSELL PLATTS, Pennsylvania,
PETER WELCH, Vermont                 JOHN J. DUNCAN, Jr., Tennessee
CAROLYN B. MALONEY, New York
                    Michael McCarthy, Staff Director




































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 10, 2007...............................     1
Statement of:
    Bascetta, Cynthia A., Director, Health Care, U.S. Government 
      Accountability Office; Lorna Thorpe, Deputy Commissioner, 
      Division of Epidemiology, New York City Department of 
      Health and Mental Hygiene; Dr. Spencer Eth, vice president, 
      Department of Psychiatry, medical director, Behavioral 
      Health Services, Saint Vincent's Catholic Medical Centers; 
      Dr. James Melius, administrator, New York State Laborers' 
      Health and Safety Trust Fund; and Thomas McHale, detective, 
      Port Authority Police Department, Port Authority Police 
      Detectives Endowment Association, National Association of 
      Police Organizations.......................................    15
        Bascetta, Cynthia A......................................    15
        Eth, Spencer.............................................    52
        McHale, Thomas...........................................    66
        Melius, James............................................    59
        Thorpe, Lorna............................................    43
Letters, statements, etc., submitted for the record by:
    Bascetta, Cynthia A., Director, Health Care, U.S. Government 
      Accountability Office, prepared statement of...............    17
    Eth, Dr. Spencer, vice president, Department of Psychiatry, 
      medical director, Behavioral Health Services, Saint 
      Vincent's Catholic Medical Centers, prepared statement of..    55
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, various articles....................    78
    McHale, Thomas, detective, Port Authority Police Department, 
      Port Authority Police Detectives Endowment Association, 
      National Association of Police Organizations, prepared 
      statement of...............................................    69
    Melius, Dr. James, administrator, New York State Laborers' 
      Health and Safety Trust Fund, prepared statement of........    61
    Nadler, Hon. Jerrold, a Representative in Congress from the 
      State of New York, prepared statement of Dr. Reibman.......     7
    Thorpe, Lorna, Deputy Commissioner, Division of Epidemiology, 
      New York City Department of Health and Mental Hygiene, 
      prepared statement of......................................    46


 9/11 HEALTH EFFECTS: THE SCREENING AND MONITORING OF FIRST RESPONDERS

                              ----------                              


                       MONDAY, SEPTEMBER 10, 2007

                  House of Representatives,
            Subcommittee on Government Management, 
                     Organization, and Procurement,
              Committee on Oversight and Government Reform,
                                                      Brooklyn, NY.
    The subcommittee met, pursuant to notice, at 10:45 a.m., at 
the Brooklyn Borough Hall, Ceremonial Courtroom, 209 Joralemon 
Street, Brooklyn, NY, Hon. Edolphus Towns (chairman of the 
subcommittee) presiding.
    Present: Representatives Towns and Maloney.
    Staff present: Rick Blake, professional staff member; and 
Cecelia Morton, clerk.
    Mr. Towns. The hearing will come to order.
    As we begin the business of today, we should remember 6 
years ago, when toxic clouds of smoke from the World Trade 
Center hung above lower Manhattan and Brooklyn. On that day and 
in the weeks that followed, first responders, construction 
workers and volunteers came to Ground Zero to work on the 
rescue and recovery effort, and we salute them for that.
    Many of them have become victims of 9/11, facing health 
challenges such as pulmonary fibrosis, post-traumatic stress 
disorder and more. In February, we learned about all the work 
that New York City and New York State have started. We asked 
the Federal officials at Health and Human Services for more 
support of these programs.
    At that time, we questioned the Assistant Secretary of 
Health Agwunobi, who told us the administration was working on 
a report from a task force which would come up with a plan. We 
pressed for more details from HHS and basically got what only 
can be called, in my neighborhood, the runaround.
    Now, more than 6 months later, we still don't have a final 
report or a plan from the administration for dealing with the 
long-range health consequences of 9/11. It was this 
subcommittee's intent to call Dr. Agwunobi back to testify and 
ask him about his plan. But instead, we learned that he quit.
    But, someone needs to produce it. Even 6 years later, New 
Yorkers are still dealing with the long-term health effects 
from this tragedy. And, we intend to hold the administration 
accountable. And, let me put it this way. We are not going 
away.
    I don't mean to be overly critical, but the lack of a long-
range plan has become a pattern in this administration. 9/11, 
no plan. Katrina, no plan. Iraq, no plan. They simply don't 
deal with large-scale adversities too well.
    Today, we will get an update from witnesses who are the 
experts on 9/11 health, both the Government Accountability 
Office and our expert witnesses from New York City, have new 
reports concerning the health screening and monitoring of our 
first responders, and information concerning what has really 
happened in terms of their physical and mental health. Doctors 
and first responders will tell us how health care is being 
delivered.
    I would, at this point, like to thank my colleague and 
friend, Congresswoman Carolyn Maloney, for the outstanding work 
that she has been doing on behalf of the project, in terms of 
9/11 health care and, of course, responding to the issues and 
concerns. Congresswoman, you are doing a superb job. And, at 
this time, I would like to yield to you for an opening 
statement.
    Mrs. Maloney. Thank you so much.
    First and foremost, I want to thank you, my good friend 
Congressman Towns, for holding this very important hearing on 
the eve of the sixth anniversary of 9/11. This is the third in 
a series of hearings on the health effects of 9/11, and I 
commend you for your unwavering efforts to bring this issue to 
the forefront.
    I also want to thank my good friend, Jerry Nadler. Working 
together, we will not rest until everyone exposed to the toxins 
at Ground Zero is monitored, and all who are sick are treated 
as a result of their exposure, that they get the medical 
treatment that they need and that they deserve.
    The collapse of the World Trade Center towers took nearly 
3,000 lives in an instant and released a massive cloud of 
asbestos, concrete and other poisons. Due to those toxins, we 
now know that thousands more have lost their health.
    Six years later, more than 6,500 responders, truly the 
heroes and heroines of 9/11, are being treated for 9/11-related 
health problems through the federally funded World Trade Center 
Monitoring and Treatment Program. And, more than 4,500 have 
been referred for mental health care, often for conditions like 
post-traumatic stress syndrome.
    Every month, another 500 to 1,000 responders sign up for 
health monitoring. And, those coming in are more sick than ever 
before.
    Separately, more than 70,000 Americans reported to the 
World Trade Center Health Registry. Although most are from New 
York, New Jersey and Connecticut, more than 10,000 Americans 
came from outside the tri-State area and are registered. 
Amazingly, every single State in the Union had representatives 
at 9/11, including Hawaii and Alaska. This is a health 
emergency on a national scale, and it requires a strong Federal 
response.
    Two days ago, at a labor rally at Ground Zero, I joined the 
New York AFL-CIO president, Denis Hughes, Representative 
Nadler, our Senators and Congressman Rangel, in announcing the 
9/11 Health and Compensation Act, which we will be introducing 
this week in Congress.
    The 9/11 Health and Compensation Act will ensure that 
everyone exposed to the Ground Zero toxins has a right to be 
medically monitored, and all who are sick as a result have a 
right to treatment. It will build on the expertise of the 
Centers for Excellence at Mount Sinai, Bellevue and other 
sites, which are currently providing high-quality care to 
thousands of responders, and ensuring ongoing data collection 
and analysis, and expanded care to the entire exposed 
community.
    The bill also includes care for area residents, workers and 
school children, as well as the thousands of people that came 
from across the country to assist with the recovery and clean 
up efforts.
    Finally, the bill provides compensation for economic 
damages and loss by re-opening the September 11th Victims 
Compensation Fund.
    I have been fighting for years to make sure that all these 
things happen. And I am very proud to be working with 
representatives Nadler and Rangel and Towns and many others, 
with very strong support of the New York AFL-CIO, to move this 
comprehensive package forward.
    Only the Federal Government has the resources and the reach 
to properly address the health and compensation needs. Only the 
Federal Government can take care of the thousands and thousands 
who responded to help at Ground Zero. But often, it feels like 
we in Congress are fighting the Bush administration every step 
of the way.
    Let me give you just one of many examples. In my very first 
hearing of the year of the subcommittee, we heard from Dr. John 
Agwunobi, who was Assistant Secretary of Health at the 
Department of Health and Human Services and who also acted as 
Chair of the Department's World Trade Center Task Force. Many 
of us left that hearing feeling like there were many more 
questions left than good answers given. Since then, we have 
learned that the World Trade Center Task Force briefed HHS 
Secretary Leavitt with their recommendations. Remarkably, still 
no action has been taken on these recommendations. And, Dr. 
Agwunobi has resigned, effective September 4th, without 
releasing the plan of action he promised, and that has been 
promised to us repeatedly, over and over and over again, from 
the administration.
    So, along with Senators Clinton, Schumer, Nadler, Pallone, 
Towns and many others, we have written to Secretary Leavitt to 
request a meeting to find out when he intends to appoint a new 
Chair for the World Trade Center Task Force.
    Let me close by saying that I look very much forward to the 
hearing and the testimony of our witnesses today. I thank each 
and every one of you for being here and for doing your part to 
help others. And, you are here really doing important work to 
ensure that those exposed to the toxins are monitored and those 
who are sick are treated. That is the least we can do, as the 
wealthiest nation on Earth, take care of the people who rushed 
selflessly into burning buildings to help others.
    I yield back the balance of my time.
    Mr. Towns. Thank you, very much, Congresswoman Maloney.
    We have been joined by Congressman Nadler, who, of course, 
represents Manhattan and Brooklyn and who has been very, very 
involved in this issue over the years. Ladies and gentlemen, 
Congressman Nadler.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Chairman, let me begin by thanking you for holding this 
hearing, by thanking Congresswoman Maloney for the work she has 
done on this issue, and thanking the AFL-CIO for the work that 
they have done on this issue, in particular on helping us craft 
the bill that Congresswoman Maloney and I and some others will 
be introducing shortly.
    When the Twin Towers came down on September 11, 2001, our 
first responders--firefighters, police officers, EMTs, steel 
workers and countless others--selflessly put their lives in 
danger so that they might save the lives of others. Workers and 
volunteers came from all five boroughs, from New Jersey and 
Connecticut and from every other State in the Union. At the 
moment when our country was under attack, these responders were 
on the front lines, sifting through the rubble of the World 
Trade Center searching desperately for survivors.
    Many of them did this without proper protective equipment, 
because government officials--the EPA, OSHA and the White 
House--told them it was safe. Now, 6 years later, many of them 
are sick.
    At the Pentagon, OSHA enforced regulations requiring the 
use of respirators. No workers became sick. At Ground Zero, Con 
Edison made sure that its workers wore respirators, and none of 
the Con Edison workers became sick. But, OSHA failed to enforce 
its own regulations at the World Trade Center site, as did the 
EPA, as did the city of New York. Someone made the deliberate 
decision not to enforce the OSHA laws, and 70 percent of the 
first responders who worked on that site are sick, and some 
others have already died.
    As Chair of the Subcommittee on the Constitution, Civil 
Rights and Civil Liberties, I held a hearing in June where we 
heard for the first time from the former head of OSHA, who 
testified under oath that OSHA had properly protected the 
health and safety of workers at Ground Zero.
    He also testified that OSHA's breathing zone samples showed 
exposures were below the agency's permissible levels, even 
though independent tests showed otherwise.
    Back in 1986, under the Reagan administration, EPA 
concluded that there are no safe levels, no minimum safe levels 
of asbestos. The former head of OSHA--the same former head--
even signed a letter explaining that all World Trade Center 
dust would be considered to contain asbestos, and that, 
therefore, triggered all the laws regarding cleanup of 
asbestos. And yet, OSHA handed out paper filament masks on 9/11 
that were clearly marked, ``Warning: This mask does not protect 
your lungs.''
    OSHA claims that it conducted safety and health inspections 
to ensure that standards were followed and the workers were 
properly protected. Had this been the case, the agency should 
have alerted workers to the grave health and safety violations 
at the World Trade Center site and enforced regulations that 
required that all workers wear respirators. If all workers had 
been wearing respirators, first responders like Marvin Bethea, 
for example, who has testified at many hearings, would not be 
suffering from 9/11 health effects.
    In 2002, EPA issued a report called ``Lessons Learned in 
the Aftermath of September 11, 2001,'' which states that, 
``EPA's mission was to protect front line responders and 
residents from dust and contaminants released when commercial 
aircraft were deliberately crashed.'' It goes on to say, 
``Mission accomplished.''
    If EPA's response to Ground Zero indeed constituted 
``mission accomplished,'' then first responders like John 
Sferazo, who has testified at many hearings, would not today be 
suffering from 9/11 effects.
    The response of the Federal Government is totally 
inadequate. Indeed, I have often said that the Federal 
Government has betrayed our first responders. The brave men and 
women who worked seemingly endless days at the World Trade 
Center site deserve answers to their questions and deserve help 
for their afflictions.
    Why did OSHA not enforce the law in New York, with respect 
to the non-city or State employees on the site, despite 
repeated requests from the city to do so? The OSHA head 
testified at our hearing in June that they had no jurisdiction 
to force city workers to comply with those regulations. But, 
they did have jurisdiction to enforce the law with regard to 
non-city and State employees. Why did they no do so, despite 
repeated requests from the city to do so.
    Why did OSHA hand out inadequate paper masks that did not 
protect against asbestos or ultra fine particulates to workers? 
Why did EPA shirk its responsibility to warn all those people 
in New York, in Lower Manhattan, that the air was not safe to 
breathe? Indeed, why did they knowingly and deliberately lie, 
telling people the air was safe to breathe, when there were 
ample tests results that showed to the contrary?
    In the meantime, we have been forced to go hat in hand, 
begging for health care for the first responders. Despite all 
the published scientific reports and all the 9/11 community 
rallies, we still find ourselves shouting that we need help.
    The Federal Government put these men and women in harm's 
way on 9/11 and is now treating them like pests rather than 
heroes. Doctors at Mount Sinai and at Bellevue have been doing 
a fantastic job. Mount Sinai is doing a fantastic job of 
treating those responders, and Bellevue is treating local 
residents who need care. But, doing so has been a struggle, as 
they receive only a fraction of the funding their program 
needs.
    A July GAO report found that efforts by the Federal 
Government to provide services to first responders have been 
intermittent and haphazard, at best.
    Abraham Lincoln said, in his second inaugural address that 
we must ``care for him who shall have borne the battle.'' And 
so we should. I am pleased that Congresswoman Maloney and I and 
others will soon be introducing legislation to provide long-
term healthcare to all those with 9/11-related illnesses. Our 
legislation would build on the efforts of the Centers of 
Excellence in New York City and would extend to people who came 
from all over the country to aid in the massive rescue and 
recovery efforts after 9/11. I encourage all my colleagues to 
support this bill and to pass it without delay.
    Dr. Joan Reibman of Bellevue has prepared testimony on 
behalf of the New York Health and Hospitals Corp.
    I ask, Mr. Chairman, that it be submitted in whole for the 
record.
    Mr. Towns. Without objection.
    [The prepared statement of Dr. Reibman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Nadler. And I again thank the AFL-CIO for its help and 
leadership in preparing this legislation.
    Tomorrow, we mark 6 years of incompetence and malfeasance 
on the part of the Federal Government. I would call it more 
malfeasance than incompetence. I call on EPA to stop covering 
up its harmful and illegal actions in response to the attacks 
of 9/11. I call on EPA to conduct a proper testing and cleanup 
program in Lower Manhattan, in Brooklyn, in Queens, and to 
fulfill its legal mandate to clean up indoor air, not just in 
Lower Manhattan, but also in Brooklyn and in any other areas 
that were contaminated by the World Trade Center dust.
    And, I call on Congress to pass the bill that Congresswoman 
Maloney and I will be introducing to provide comprehensive 
healthcare benefits to all those who are suffering the health 
effects of 9/11.
    And, I call on the Bush administration to take their heads 
out of the sand, stop denying the obvious and start treating 
the first responders as heroes and stop treating them as pests.
    I thank you, and I yield back.
    Mr. Towns. Thank you, very much, Congressman Nadler.
    We have been joined by the deputy borough president of 
Brooklyn. And I want to just sort of first thank them for 
allowing us to come in and use the facility here. And I am 
always happy and anxious and eager to introduce the deputy 
borough president of Brooklyn, because some of you might not 
know that I served as a deputy borough president of Brooklyn 
for many, many years. So, I have a special kind of feeling when 
it comes to deputy borough president.
    So, it is my honor and my pleasure to present to you Yvonne 
Graham, the deputy borough president of Brooklyn.
    Ms. Graham. Thank you, Congressman Towns. It is my honor to 
present these remarks on behalf of borough president Marty 
Markowitz.
    Good morning, Chairman Towns and members of the 
Subcommittee on Government Management, Organization, and 
Procurement.
    Tomorrow, of course, marks the sixth anniversary of the 
tragic events of September 11, 2001. The scars of 9/11 are 
still fresh, and that horrific event continues to harm the 
collective memory of all New Yorkers. So, I thank you for 
organizing this hearing on the health impacts of 9/11 
particularly as they relate to the brave men and women who came 
to our city's aid on that terrible day and who worked for so 
many months afterwards to help us heal.
    I am extremely grateful to the New York delegation for 
working in bipartisan cooperation to secure Federal funding for 
monitoring, research and treatment programs that 9/11 
responders both need and deserve. Our city and Nation must help 
those who volunteered so selflessly during and after the 
attack.
    According to an article in last week's Village Voice, 
statistics indicate that 3.6 percent of the 25,000 Ground Zero 
workers have reported symptoms of asthma after working at the 
site. The article also reports that more than 3,000 
firefighters have sought medical treatment for respiratory 
conditions since 9/11, and more than 25 percent of all New York 
City's firefighters show symptoms of asthma.
    We must address these health issues now and continue that 
commitment well into the future. Since these respiratory 
ailments and cancers can develop over time and appear years 
later, it is critical that everyone who worked at Ground Zero 
be monitored for health conditions and be given access to long-
term healthcare programs, if need be.
    We all know that mistakes were made. The air was not 
immediately tested after the disaster. And, residents and 
responders were told that the air was safe to breathe. Although 
it may be too late to change that history, it is not too late 
to address the short and long-term health effects that may have 
resulted.
    As elected officials, our No. 1 priority is ensuring the 
well-being of our residents. Our call to action should be 
making sure that New Yorkers who are suffering from 
complications as a result of the attacks get the healthcare and 
services they need. Our mandate must be securing Federal 
funding for research, monitoring and long-term treatment, so 
that all victims can be treated now and in the future.
    Tomorrow, the halls of government will echo with the phrase 
``Never forget,'' referring to those we lost. We honor their 
memory. And, we must also never forget those who, without 
regard to their own safety, hurried to the site of the tragedy 
to help a city in need.
    Thank you all for refusing to forget.
    Mr. Towns. Thank you, very much, Deputy Borough President 
Graham. Thank you for your statement and also, again, thank you 
for allowing us to come in.
    And, to those of you who might not know, she was very, very 
involved in healthcare herself, before becoming deputy borough 
president of Brooklyn.
    Thank you, so much, for coming.
    At this time, we would introduce our witnesses.
    We have Cynthia Bascetta, Director of Health Care, U.S. 
Government Accountability Office. Thank you for coming.
    Dr. Lorna Thorpe, deputy commissioner of health, New York 
City Department of Health and Mental Hygiene, and director of 
Division of Epidemiology.
    Dr. Spencer Eth, senior vice president and medical 
director, Behavioral Health Services, Saint Vincent's Medical 
Center of New York. Welcome, and thank you for coming.
    And, of course, Dr. James Melius, administrator of New York 
State Laborers Health and Safety Trust Fund.
    And, Thomas McHale, detective with the Port Authority of 
New York and New Jersey Police.
    Thank you all for coming. It is our longstanding policy 
that we swear in our witnesses. So, if you would stand and 
raise your right hands?
    [Witnesses sworn.]
    Mr. Towns. Let the record reflect that the witnesses have 
answered in the affirmative.
    We are going to move right down the line, from your right 
to your left.
    We will start with you, Ms. Bascetta. Thank you. If you 
would, just use like 5 minutes to give us a summary. And, the 
reason for it is that we want to be able to get into questions. 
And, of course, I know that these Members have something else 
that they need to do. And, of course, I am involved in that, as 
well. So, while--and we want to be able to cover as much, so we 
think in the question-and-answer you may be getting into all 
the other things that you might not be able to say in your 
statement. OK? Thank you so much.
    And we will go right down the line.

STATEMENTS OF CYNTHIA A. BASCETTA, DIRECTOR, HEALTH CARE, U.S. 
    GOVERNMENT ACCOUNTABILITY OFFICE; LORNA THORPE, DEPUTY 
     COMMISSIONER, DIVISION OF EPIDEMIOLOGY, NEW YORK CITY 
DEPARTMENT OF HEALTH AND MENTAL HYGIENE; DR. SPENCER ETH, VICE 
    PRESIDENT, DEPARTMENT OF PSYCHIATRY, MEDICAL DIRECTOR, 
 BEHAVIORAL HEALTH SERVICES, SAINT VINCENT'S CATHOLIC MEDICAL 
   CENTERS; DR. JAMES MELIUS, ADMINISTRATOR, NEW YORK STATE 
  LABORERS' HEALTH AND SAFETY TRUST FUND; AND THOMAS MCHALE, 
  DETECTIVE, PORT AUTHORITY POLICE DEPARTMENT, PORT AUTHORITY 
 POLICE DETECTIVES ENDOWMENT ASSOCIATION, NATIONAL ASSOCIATION 
                    OF POLICE ORGANIZATIONS

                 STATEMENT OF CYNTHIA BASCETTA

    Ms. Bascetta. Mr. Chairman and members of the subcommittee, 
thank you for inviting me to discuss the implementation of 
federally funded health programs for responders who served in 
the aftermath of the World Trade Center disaster.
    As you know, these responders were exposed to numerous 
physical hazards, environmental toxins and psychological 
trauma, which has continued to exact a toll for many of them, 
even 6 years after the attack.
    My testimony today is based on our body of work, including 
four testimonies from our July 2007 report. In this work, we 
found that HHS-funded programs as separate efforts serving 
different categories of responders; for example, firefighters, 
police, other workers and volunteers and the Federal 
responders. We also highlighted that the Federal responder 
screening program had accomplished little, in light of the kind 
of programs for other responders.
    My remarks today focus on the status of NIOSH's awards for 
treatment to World Trade Center health program grantees, the 
services provided to Federal responders and efforts by NIOSH to 
provide services for non-Federal responders residing outside 
the New York City metro area.
    To do our work, we reviewed numerous documents and 
interviewed officials of the Federal Government and private-
sector organizations.
    Last fall, NIOSH awarded and set aside funds totaling $51 
million from its $75 million appropriation to pay for treatment 
programs, notably the first time that Federal funds were 
awarded for this purpose. And about $44 million was for 
outpatient treatment, and about $7 million was set aside for 
inpatient hospital care. The bulk of the funding went to the 
fire department and the New York/New Jersey Consortium. In 
addition to outpatient care, Federal funds paid for 34 
hospitalizations of responders so far. NIOSH is now planning 
how to use the $50 million emergency supplemental appropriation 
made in May 2007, to continue support for treatment into the 
year 2008.
    We reported this July that HHS has had continuing 
difficulties ensuring the uninterrupted availability of 
services for Federal responders who had been eligible only for 
a one-time screening examination. First, the provision of these 
screening examinations has been intermittent. HHS suspended 
them from March 2004 to December 2005, resumed them for about a 
year, then placed the program on hold and suspended scheduling 
exams from January to May 2007. The interruptions occurred 
because interagency agreements were not put in place in time to 
keep the program fully operational.
    Second, the provision of specialty diagnostic services 
associated with screening has also been intermittent, 
Responders often need further diagnostic tests from ear, nose 
and throat physicians, cardiologists and pulmonologists, and 
the program had referred responders and paid for these 
diagnostic services. However, because the contract with a new 
provider network did not cover these services, they were 
unavailable from April 2006 until the contract was modified in 
March 2007.
    NIOSH was considering expanding the services for Federal 
responders to include monitoring examinations, the same 
followup physical and health examinations provided to other 
responders. Without followup, their health conditions may not 
be diagnosed and treated, and knowledge of the health effects 
caused by the disaster may be incomplete.
    We also found that NIOSH has not ensured the availability 
of screening and monitoring services for non-Federal responders 
outside of the New York City area, although it recently took 
steps to expand their availability. Similar to the intermittent 
service pattern for Federal responders, NIOSH's formation of a 
network of occupational health clinics to provide services 
nationwide were on-again/off-again. NIOSH renewed its efforts 
to expand the provider network, however; and in May 2007, had 
completed about 20 exams.
    Mr. Chairman, despite HHS's recent consideration of ways to 
add monitoring for Federal responders and to improve the 
availability of screening and monitoring services for Federal 
and non-Federal responders nationwide, these efforts remain 
incomplete. Moreover, the start-and-stop history of the 
Department's efforts to serve these groups does not provide 
assurance that the latest efforts to extend screening and 
monitoring services to these responders will be successful and 
will be sustained over time.
    As a result, we recommended in our July 2007, report that 
the Secretary take expeditious action to ensure the 
availability of health screening and monitoring services for 
all people who responded to the attack on the World Trade 
Center, regardless of their employer or their residence. To 
date, HHS has not responded to our recommendation.
    That concludes my remarks, and I would be happy to answer 
any questions.
    [The prepared statement of Ms. Bascetta follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much for your statement.
    Dr. Thorpe.

                   STATEMENT OF LORNA THORPE

    Dr. Thorpe. Good morning, Chairman Towns, Congresswoman 
Maloney, Congressman Nadler and Deputy Borough President Yvonne 
Graham, if she is still with us.
    My name is Lorna Thorpe, deputy commissioner of the 
Division of Epidemiology at the New York City Department of 
Health and Mental Hygiene. Thank you for inviting me to discuss 
two scientific studies done on the health impacts of the World 
Trade Center disaster among rescue and recovery workers.
    These studies, conducted using the largest sample of 
exposed workers and volunteers assembled to date, add important 
new findings to the growing body of information on the physical 
and mental health effects of the disaster. They are based on 
interviews of more than 25,000 rescue and recovery workers who 
enrolled in the World Trade Center Health Registry during 2003 
and 2004.
    By way of background, the World Trade Center Health 
Registry is one of the Nation's main platforms for 
understanding possible short and long-term World Trade Center-
related illnesses. It was developed as a collaboration between 
the New York City Health Department and the Agency for Toxic 
Substances and Disease Registry [ATSDR], with the goal of 
tracking exposed individuals for up to 20 years.
    Initially funded through FEMA, and later through special 9/
11 congressional appropriations, the Registry has sufficient 
funding to last through Federal fiscal year 2008. We estimate 
that it requires at least $4.5 million per year to maintain the 
Registry going forward.
    In all, more that 71,000 individuals voluntarily enrolled 
in the Registry, including persons from every State and almost 
every congressional district in the United States. More than 20 
percent of the enrollees lived outside of New York State on 
September 11, 2001.
    In addition to enrolling workers, the Registry includes 
another 14,000 Lower Manhattan residents, 10,000 tower 
survivors and survivors of other damaged or destroyed 
buildings, 19,000 occupants of other Lower Manhattan buildings 
near the World Trade Center site, 3,000 children, 13,000 people 
who were on the street or in transit around the World Trade 
Center at the time of the building collapse.
    The Registry will monitor the health of enrollees over a 
20-year time period through periodic health surveys, special 
in-depth studies and routine assessments of cancer incidence 
and mortality. Special studies initiated by either government 
or academic institutions is open for external research.
    The two peer-reviewed studies published this month reported 
the development of asthma and on post-traumatic stress disorder 
among rescue and recovery workers after 9/11. Both are 
potentially lifelong conditions that can be controlled with 
appropriate treatment.
    The asthma study, published this month in the journal 
Environmental Health Perspectives, found that among more than 
25,000 previously asthma-free rescue and recovery workers, 3.6 
percent reported having been diagnosed with new-onset asthma by 
a physician within a 2 to 3-year time period after working at 
the site. That is a rate 12 times higher than expected in the 
general adult population.
    The study also shows that asthma rates were highest among 
two groups of workers: those who arrived soon after the 
buildings collapsed, particularly those arriving on September 
11th and September 12th; and those who worked for long 
durations at the site, over 90 days. For workers who arrived on 
September 11th and worked more than 90 days, rates of asthma 
were as high as 7 percent, more than 20 times higher than would 
have been expected in the general population.
    Certain respirators or masks can reduce exposure to 
hazardous dust when used correctly. While the survey did not 
distinguish between different types of respirators or masks, or 
gauge correct usage, we did find that reported mask use 
afforded moderate protection against developing asthma.
    For example, workers who wore them on September 11th and 
September 12th reported significantly lower rates of newly 
diagnosed asthma than those who did not. Generally, the longer 
the period of not wearing respirators or masks, the greater the 
risk, although asthma levels were elevated in all worker 
groups, including those who wore mask.
    The asthma findings in this study and their dose response 
relationship to the World Trade Center exposures are consistent 
with and add important additional information to prior lung 
function decline studies by the New York City Fire Department 
and the Mount Sinai Medical Monitoring program.
    The other study published this month in the American 
Journal of Psychiatry examined survey responses of nearly 
29,000 rescue and recovery workers who worked directly at World 
Trade Center site.
    In this study, we found that one in eight workers, or 12.4 
percent, had post-traumatic stress disorder at the time of 
their interviews. The prevalence of post-traumatic stress 
disorder [PTSD], in the U.S. population is roughly 4 percent at 
any given time. This is three times that rate.
    Post-traumatic stress disorder can be devastating, 
affecting the sufferer's families and their work lives.
    People with PTSD are at greater risk of suffering from 
depression and substance abuse.
    We found that levels of PTSD among workers varied 
significantly by occupation, with rates ranging from 6.2 
percent among police officers, to 21.2 percent among volunteers 
not affiliated with an organization. Workers from non-emergency 
occupations, such as construction, engineering and sanitation 
workers, also suffered particularly high rates of PTSD, which 
may reflect that these workers do not typically have disaster 
preparedness training or prior experience with emergencies, 
both of which can help buffer psychological trauma.
    As with the asthma study, people who started work or soon 
after 9/11, or who worked for longer periods of time, were more 
vulnerable to developing PTSD.
    The study also found that working outside of one's area of 
expertise increased the risk of developing PTSD--for example, 
civilian volunteers engaged in firefighting, or engineering and 
sanitation workers performing search and rescue. Sustaining and 
injury and having to evacuate a building also increased their 
risk.
    These two studies demonstrate the need for continued 
monitoring and care of exposed workers. They also offer 
important lessons to help emergency planners reduce the impact 
of future disasters, such as ensuring the availability of 
respiratory and other protective equipment, and proper training 
in its use; the value of disaster preparedness training for all 
types of emergency responders; the use of shift rotations to 
reduce workers' duration at emergency sites; and the importance 
of limiting exposure of those who have had less experience with 
trauma response, such as volunteers.
    In addition to these two studies, we have a number of other 
registered studies under peer review, including ones examining 
the health impacts on the residents of Lower Manhattan and 
children.
    Mr. Towns. If you could, sum up, please.
    Dr. Thorpe. The New York City Health Department is also 
conducting special in-depth studies, using the Registry as a 
foundation. First among these is a clinical investigation of 
respiratory health, in collaboration with Bellevue Hospital. 
This study focuses on residents and building occupants in Lower 
Manhattan who report persistent respiratory symptoms.
    The collapse of the World Trade Center towers on 9/11 was 
an unprecedented urban environmental disaster brought on by a 
terrorist attack upon our Nation. We are grateful to the New 
York City congressional delegation and to Mayor Bloomberg for 
providing funding to support both the Centers of Excellence and 
the World Trade Center Registry.
    We are confident that working together with our elected 
officials nationwide, we can improve the medical and healthcare 
services to address the needs of first responders, recovery 
workers, residents and all those who may have suffered health 
effects related to the events of September 11, 2001.
    Thank you.
    [The prepared statement of Dr. Thorpe follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you, very much.
    Dr. Eth.

                    STATEMENT OF SPENCER ETH

    Dr. Eth. Good morning, Congressman Towns, Congresswoman 
Maloney, Congressman Nadler and other distinguished guests.
    My name is Dr. Spencer Eth, and I am medical director of 
Behavioral Health Services at Saint Vincent Catholic Medical 
Centers, and professor of psychiatry at New York Medical 
College.
    It is a privilege to speak today about a subject that is of 
the utmost importance to me as a psychiatrist, and indeed to 
everyone present here today.
    Six years ago tomorrow, I was completing psychiatric rounds 
in Saint Vincent's Hospital when a plane crashed into the north 
tower. As the closest academic medical center to the World 
Trade Center and as the hospital that had received most of the 
victims of the February 1993, bombing, Saint Vincent's 
immediately implemented its disaster plan in anticipation of 
the expected onslaught of patients. Beds were cleared, elective 
surgeries and clinics were canceled, and all professional staff 
stood ready for action. However, within the first 2 hours, only 
400 patients presented to the Saint Vincent's emergency room, 
most having suffered minor injuries.
    Then, the sirens stopped, and few new patients arrived for 
emergency medical care. There was no second wave of injured 
survivors. Tragically, the 2,800 people trapped in and adjacent 
to the towers died, while the majority of others in the 
vicinity were not seriously hurt. Saint Vincent's did not 
perform a single surgery that day.
    Instead, what transpired was astounding. Saint Vincent's 
became surrounded by hundreds of people in acute emotional 
distress--people who were terrified and desperately seeking 
information, reassurance and crisis counseling.
    We mobilized our mental health staff, and within hours, 
began seeing all of these people at Saint Vincent's, and soon 
afterwards at the nearby New School University.
    True to our mission, the Saint Vincent's Department of 
Psychiatry made a commitment to care for everyone who needed 
our help without charging a single fee. Operating around the 
clock, we provided over 7,000 sessions and answered over 10,000 
telephone calls in that first week. I will never forget the 
impact our services had on so many suffering New Yorkers in 
this immediate crisis phase of the disaster response.
    We knew that our professional staff would soon have to 
return to their regular duties treating patients with mental 
illness and substance abuse. Consequently, we recognized the 
need to hire and train new clinicians to meet the demands of 
the World Trade Center victims and first responders. And, in 
order to do so, we actively sought donations to cover the 
additional personnel costs. We were fortunate that many 
corporations, foundations and individuals supported this phase 
of our work.
    On September 26, 2001, I testified in Washington at a 
special hearing of the Senate Health, Education, Labor and 
Pensions Committee. I vividly recall the moving testimony of 
the other witnesses, who included Dr. Kerry Kelly, the medical 
director of the FDNY. I also remember the reactions of the 
committee members. Chairman Kennedy and Senators Clinton, 
Wellstone, Warner and Frist--all of them pledged to supply the 
Federal funds that would be necessary to meet the mental health 
needs of the survivors of the terrorist attack.
    On that basis, Saint Vincent's developed special long-term 
psychiatric programs to treat the World Trade Center victims, 
first responders and public safety workers who were at the 
pile. Thousands of adults and children were seen at our 
hospital and in site at the FDNY firehouses, at the schools in 
Lower Manhattan, in the Port Authority Police Department 
trailers surrounding Ground Zero and, in the following year, at 
the Saint Vincent's World Trade Center Healing Services offices 
at 170 Broadway.
    Finally, in 2002, the promised Federal funds began to flow. 
In particular, FEMA's New York State Project Liberty allowed us 
to broaden the scope of our programs. However, FEMA mandated 
that only crisis counseling could be provided through Project 
Liberty. Many of the World Trade Center survivors we saw were 
already suffering from more serious mental conditions. These 
disorders generally required a course of psychotherapy and 
possibly psychotropic medication. The limitations of the FEMA 
regulations prevented the sickest victims from receiving 
effective treatment in Project Liberty funded programs.
    Another Federal agency, SAMHSA, awarded Saint Vincent's one 
of its seven Public Safety Worker Program grants. That expanded 
our ability to evaluate and treat first responders. We assessed 
the mental health needs of this population and delivered 
psychiatric care in proximity to work sites. We noted that 
although the number of patients decreased over the 3-year life 
of the grant, the severity of their symptoms actually worsened. 
In addition, many patients presented for the first time only 
years after trying unsuccessfully to cope with their suffering.
    Although the work of the healing was far from complete, the 
Federal funding for Project Liberty and the Public Safety 
Worker Program ended 2 years ago. Saint Vincent's has continued 
to meet its commitment to those still suffering the emotional 
wounds of 9/11.
    In our current phase of disaster relief, Saint Vincent's is 
once again dependent on private donations, especially support 
from the 9/11 funds of the American Red Cross and the New York 
Times Foundation. We are receiving no Federal, State, or city 
funding, which has been exclusively directed to Bellevue and 
Mount Sinai Hospitals. This is despite our record of treating 
over 60,000 survivors for mental health needs.
    Looking to the future, our clinical experience suggests--
and I will be done in just----
    Mr. Towns. Yes. Please wrap up.
    Dr. Eth [continuing]. About 30 seconds----
    Mr. Towns. OK.
    Dr. Eth. Our clinical experience suggests that there will 
be an ongoing need for mental health care for 9/11 workers and 
others exposed to the terrorist attack and its aftermath. The 
study co-authored by Dr. Thorpe demonstrated chronic PTSD in 12 
percent of rescue and recovery workers, 2 to 3 years after 9/
11. This mental condition is well-known to be difficult to 
treat and to be associated with long-term emotional distress 
and occupational disability.
    Further, many victims of 9/11 are developing pulmonary and 
other medical illnesses arising from their exposure to toxic 
substances. These individuals can also be expected to 
experience new and worsening psychiatric symptoms that will 
erode their level of function and their ability to cope.
    These are not theoretical concerns, but actual findings 
from our evaluation and treatment of first responders. But, 
despite our best efforts, Saint Vincent's will not be able to 
continue going it alone. We need Federal assistance to provide 
mental health care to our current and future patients. We look 
to the Congress--we look to you--to honor the promise----
    Mr. Towns. Doctor, please sum up.
    Dr. Eth [continuing]. To honor the promise to our first 
responders and our Nation made 6 years ago by the Senate Health 
Committee. Please provide the funding to keep these vital 
programs alive.
    [The prepared statement of Dr. Eth follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you.
    Dr. Eth. Thank you, Mr. Chairman.
    Mr. Towns. Thank you very much.
    OK, Dr. Melius.

                   STATEMENT OF JAMES MELIUS

    Dr. Melius. Honorable Chairman Towns, Representatives 
Maloney and Nadler: I greatly appreciate the opportunity to 
appear before you at this hearing.
    I am James Melius. I am an occupational health physician, 
and as you indicate, I work for the Laborers' Union. But I have 
also spent much of my career working to document problems 
experienced by emergency responders exposed to toxic chemicals 
as part of their work. And, for over 20 years, I have served as 
Chair of the Medical Advisory Committee for the International 
Association of Fire Fighters, advising that union and its many 
members in the United States and Canada on occupational health 
issues.
    And, in that capacity, I have had the opportunity, over the 
last few years, to talk to many emergency responders from other 
parts of the country who came and helped out at the World Trade 
Center in the aftermath of the 9/11 attacks.
    For the past 4 years, I have also served as the Chair of 
the Steering Committee for the World Trade Center Medical 
Monitoring and Treatment Program. And, therefore, I have been 
in a position to oversee, and I think I can provide some 
understanding of the situation with that particular program.
    First, I would like to say that there is ample evidence 
that the large numbers of firefighters, police and other 
workers involved in the September 11th response have become ill 
as part of their work. Dr. Thorpe has presented two of the new 
findings of the New York City Health Department. And, there 
were ample studies in the literature already and ongoing 
research that will document the problems. So, very serious 
health problems are being experienced by literally thousands of 
the people who responded to that event, as well as by the 
residents and public people in the community.
    We know that there is--through the efforts of our 
congressional delegation, particularly Representatives Maloney 
and Nadler, Senator Clinton, we have established a very good 
medical program and, more recently, a federally funded 
treatment program for those workers.
    However, as we have heard from the Government 
Accountability Office today, there are some shortcomings of 
that program, and those shortcomings particularly affect two 
groups of workers. One is the Federal workers who responded to 
the event; and the second are police and firefighters, other 
emergency responders from around the country who came to help 
at that event.
    I won't repeat the findings of the GAO report about Federal 
workers, but I would indicate that, despite efforts on the part 
of the Federal Government, those workers are continuing not to 
receive the full monitoring and treatment that they deserve. 
The problems seem to be within the government, within the 
bureaucracy, in making arrangements to get everybody 
transferred over and to coordinate the care, particularly those 
who are residing in other parts of the country, outside of the 
New York City metropolitan area.
    Also, firefighters, police and other emergency responders 
from outside the immediate New York City area have had great 
difficulty getting adequate care. The Federal Government has 
tried a number of different approaches--and, again, those are 
documented by the GAO report--to arrange for monitoring and 
treatment. They have been able to provide some of that, but 
frankly most of the treatment to this day continues to be 
funded by the Red Cross and not by the Federal Government. And, 
it appears that it may be many more months before the 
government can arrange for treatment funding to be provided for 
those people living outside of the New York City metropolitan 
area.
    And this problem with the--both of these problems, for the 
Federal worker program, as well as for emergency responders 
from outside of New York City, creates a number of problems for 
the individuals involved. They are becoming increasingly 
frustrated with delays in getting care and the lack of ability 
to be able to arrange for care.
    Just as one example, the new program for national 
responders, for people from outside the area, the new contract 
with this outside national organization have managed to arrange 
exams for fewer than 100 people so far, in the last several 
months. And, we know that there are literally hundreds, if not 
thousands, of responders out there waiting to receive their 
followup monitoring. And for them to get referred for treatment 
is quite difficult.
    And, we know that there are resources outside of the New 
York area that can provide care for them. It is a question of 
really making the arrangements to do that.
    However, I really think there are also problems with 
getting full monitoring and treatment for people within the New 
York area. What we really need is a comprehensive approach to 
this problem. I think the delegation from New York has called 
for that, and I think now is the time to move forward. We can't 
continue to piecemeal together a program. We need a 
comprehensive legislative solution that would provide care.
    I believe that the legislation introduced by Congressman 
Maloney and Nadler really will address those problems. I would 
add that would directly address the problems that I have 
mentioned with the national program, as well as the problems 
that Saint Vincent's Hospital talked about today, in terms of 
being able to arrange for followup treatment for the many 
people that need it, even in the New York area.
    Thank you for your time today, and I would be glad to 
answer questions.
    [The prepared statement of Dr. Melius follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much, Doctor. Thank you.
    Mr. McHale.

                   STATEMENT OF THOMAS MCHALE

    Mr. McHale. Good morning, Chairman Towns and members of the 
subcommittee.
    My name is Thomas McHale, and I am a police detective with 
the Port Authority of New York and New Jersey Police 
Department. I am also a member of the Port Authority Police 
Detectives Endowment Association, an associate member of the 
Port Authority Police Benevolent Association, which are member 
organizations of the National Association of Police 
Organizations. NAPO is one of the largest police organizations 
in the Nation, representing over 238,00 sworn rank-and-file law 
enforcement officers throughout the United States.
    When lives are at stake, America's first responders do not 
hesitate to rush directly into harm's way. We do our jobs, 
searching for, rescuing and aiding victims, regardless of what 
unseen dangers and health risks and health hazards await. The 
substantial risks that we face when responding to disasters are 
no more clearly illustrated than by the suffering brought on as 
a result of the response to the September 11th attacks on the 
World Trade Center. As you are aware, the World Trade Center 
was the headquarters of the Port Authority and was a worldwide 
symbol of New York and America.
    Seven years after the attack on our Nation, we continue to 
mourn the 84 Port Authority personnel, including 37 members of 
the Port Authority Police Department, 23 New York City Police 
Department officers, 11 New York State and Federal law 
enforcement officers, 343 firefighters and over 2,200 civilians 
who lost their lives.
    While the Nation remembers those we lost, those who 
responded to the World Trade Center continue to suffer from the 
physical and mental traumas suffered that day and in the days 
following. According to the Mount Sinai Medical Center study on 
9/11 health effects, 70 percent of the first responders at 
Ground Zero suffer from chronic lung ailments.
    Today, I would like to take the opportunity to address my 
personal 9/11-related health issues and the need for extended 
funding for the World Trade Center Medical Monitoring and 
Treatment Fund. For purposes of character and integrity, I 
would like to provide you with a brief biography.
    I am 46 years of age, married, with four daughters, and I 
am a non-smoker. I am a Port Authority of New York and New 
Jersey police detective, with 22 years of service. Since 1995, 
I have been assigned to the FBI Joint Terrorism Task Force of 
Newark, NJ. In addition to the Task Force, since 2001, I have 
been co-assigned to the NYPD Major Case Squad, specializing in 
cold case homicides of police officers.
    Unfortunately, I am no stranger to traumatic incidents. On 
February 26, 1993, I was critically injured in the bombing of 
the World Trade Center. On September 11, 2001, minutes after 
the first plane struck, I responded to the World Trade Center 
and I joined in the rescue effort from my Major Case office at 
1 Police Plaza here in New York. I survived the collapse of the 
first tower from inside the World Trade Center.
    After escaping the first collapse, I returned to the Trade 
Center and continued with search and rescue. Before the second 
tower collapsed, I escaped through 5 World Trade Center into 
the street, where again I was caught in the debris cloud.
    I remained at the site throughout the evening and into the 
early morning hours of September 12th, taking part in the 
rescue of two Port Authority Police Officers that were trapped 
in the rubble.
    In addition to being a police detective, I am also a Union 
Ironworker. For the first 10 days following 9/11, I was on 
full-time assignment at the Trade Center site as part of the 
Port Authority Police Rescue and Recovery Team. I utilized my 
ironworking skills in the recovery of victims' bodies.
    During the second week of the rescue and recovery, the Port 
Authority Police Department ordered me to resume my position 
with the Joint Terrorism Task Force, which was investigating 
the attack. I complied with the order, but returned to the site 
at the end of my shift.
    I worked the site as a volunteer ironworker with 
Ironworkers Local 40, New York, and as a PA Police Detective. I 
worked this schedule until the end of January 2002.
    From the end of January 2002, to the beginning of April 
2002, I was on JTTF assignment in Pakistan and Afghanistan. On 
March 17, 2002, after a suicide bomber attacked a church in 
Islamabad, Pakistan, I took part in rescue and recovery of 
those injured and killed. Upon my return to the States, I 
resumed working both jobs, but not as rigorously as before. On 
May 28, 2002, Ironworkers Local 40 invited me to participate in 
the removal of the last column from the World Trade Center.
    To the present day, I have been diagnosed with reactive 
airway disease, lung scar tissue, asthma, atrial fibrillation, 
sinus tachycardia, chronic rhinitis, turbinate hypertrophy, and 
Barrett's esophagus. I am currently under the primary care of 
Dr. David Fischler, my pulmonologist, and Dr. Rakesh Passi, my 
cardiologist. In addition to my primary care physicians, my 
current health issues are being managed and monitored by the 
World Trade Center Medical Monitoring and Treatment Program 
under Dr. Iris Udasin, Environmental and Occupational Health 
Science Institute Clinical Care in Piscataway, NJ.
    On November 1, 2006, I underwent a pulmonary vein ablation 
in my heart at Robert Wood Johnson University Hospital, New 
Brunswick. While in recovery, I suffered aspiration pneumonitis 
and was transferred to the critical care unit. On November 7, 
2006, I was discharged from the hospital. In March 2007, I was 
able to return to work.
    My doctors, two cardiologists and two pulmonologists and 
the doctors from the World Trade Center Medical Monitoring 
Program all attributed my medical conditions to my exposure at 
the World Trade Center. The Port Authority Medical Division, 
without a thorough examination or consulting my doctors, ruled 
that my medical conditions are not related to the events of 9/
11. Fortunately, for me, the Port Authority Police Director, 
Samuel J. Plumeri, agreed with my physicians and overruled PA 
Medical's decision. Director Plumeri ruled that my injuries 
were, in fact, 9/11-related, thus entitling me to line of duty 
status.
    On July 20, 2007, I underwent nasal surgery to clear an 
obstruction of my nasal airway at Robert Wood Johnson. I 
returned to work 11 days later, on July 31st. The PA Medical 
Department, again without examination or consulting any of my 
physicians, determined that my nasal obstruction was not 
related to my exposure at Ground Zero. Once more, PA Police 
Director Plumeri overruled PA Medical's decision. Director 
Plumeri agreed with my physicians' findings that my nasal 
injuries or disease may, in fact, have been caused by my 
exposure at Ground Zero.
    On September 5, 2007, due to chronic acid reflux, I 
underwent an upper endoscopy at Robert Wood Johnson Hospital. 
The procedure revealed that I have Barrett's esophagus, which 
is caused by chronic acid reflux and is considered to be a pre-
malignant condition. Barrett's is associated with an increased 
risk of esophageal cancer. I am currently awaiting the results 
of my biopsy.
    Most of the costs associated with my lung and heart 
procedures have been processed through my medical insurance. 
The World Trade Center Medical Screening and Treatment Program 
have incurred some of the costs for surgery and treatment 
associated with my nasal and gastro ailments.
    In fact, it was Dr. Udasin, at EOSHI, who referred me to 
the ear, nose and throat doctor and gastroenterologist who 
diagnosed my most recent ailments.
    I would like to state that I did not file a claim for the 
Federal moneys that were available in 2001 and 2002. Although 
entitled, I could not bring myself to complete and file the 
same form as that of the survivors of those who were killed. I 
do, however, have a pending State Workers Compensation claim.
    As the health risks associated with exposure to the World 
Trade Center site become more manifest, it is important to 
ensure that workers in the rescue and recovery effort are 
properly monitored and treated for exposure-related diseases. I 
appreciate all you are doing to support those of us who have 
fallen ill due to our response and subsequent exposure at the 
World Trade Center. I urge Congress to continue to support the 
funding for the World Trade Center Medical Monitoring and 
Treatment Program in order that first responders like myself 
can maintain, or regain, their good health.
    Thank you for this opportunity to speak to you on behalf of 
the dedicated first responders who responded to the 9/11 
attacks in New York City. I ask that my printed testimony, in 
addition to my spoken testimony, be made a part of the record. 
And, I would be happy to answer any questions you may have.
    [The prepared statement of Mr. McHale follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much, and your entire statement 
will be included in the record.
    Let me begin by first thanking you for your service and, of 
course, all of you, for your testimony.
    Let me just sort of raise a question. I guess I will begin 
with you, Dr. Melius. I am concerned that we had people who 
came from across the country to volunteer their services and to 
respond to the crisis that we had. And, of course, if we do not 
treat them properly, we might discourage people from 
volunteering, and I think that is the last thing that we want 
to do.
    I think that we always want to make certain that people 
feel, to respond and come to the aid of others. But, if we are 
not treating people properly that came and gave of their 
service, what does this do to volunteerism? And, of course, 
what is the labor movement saying about these kind of issues.
    Dr. Melius. Now, you raise an excellent point, and it is 
certainly one, I think, that we should all be concerned about.
    I will say, if you talk to people that did volunteer, even 
many of those that become ill, they would tell you they would 
do it again in that circumstance. There has been a long 
tradition, I think, of being willing to come forward.
    However, if one sees that one is ill and disabled, and we 
know that the firefighters, the other emergency responders have 
become ill and disabled and are now struggling economically 
because they can no longer work, certainly it creates a second 
thought. And certainly on the part of all of us, I think, 
including organized labor, we want to make sure that if someone 
does volunteer in that situation, or is assigned--some of them, 
I think, were assigned to come in and work on the site--that 
they, one, are properly protected. We don't want this to be 
happening again.
    However, should they develop illness, that the followup be 
provided for that. There should be a mechanism in place. They 
should not have to wait 6 years. They shouldn't have to wait so 
long to get the medical monitoring and treatment that they 
rightfully deserve.
    And, it certainly could affect, in the long term, the 
willingness to do it again, or to come back, knowing that you 
are not going to be taken care of. You are risking your 
family's future by doing that, as well as your own health, by 
coming forward to help.
    Mr. Towns. Thank you very much.
    Why can't we move to get a comprehensive monitoring system? 
This is sort of for, I guess, GAO and, of course, in 
particular, Dr. Thorpe.
    I mean, why can't we get that going? A comprehensive 
monitoring system. What do you think the problems are?
    Ms. Bascetta. It is not a matter of not knowing what to do. 
I can only conclude that it is a matter of, well, the 
administration, you know, has within its sphere the expertise 
to develop the programs, and the Congress has pushed hard for 
funding. And it just hasn't happened.
    But there is no substantive reason why we shouldn't be much 
farther along at this point. And, for that matter, the really 
sad thing is that we need to learn a lesson from 9/11, so that 
in future disasters, whether they are manmade or natural, we 
are better prepared.
    Mr. Towns. All right. Any other comments on that? Yes, Dr. 
Melius?
    Dr. Melius. I would just echo that one of the problems is 
with the lack of commitment on the part of the administration. 
This program has been funded through Congress on, basically, 
emergency appropriations each time. And then, the government, 
the Federal administration, then makes the wrong assumption 
that, therefore, the program isn't going to continue beyond 
that.
    And, when Dr. Agwunobi came here right after the treatment 
program was initially funded, I believe it was last November or 
December, he immediately wanted to send out letters telling the 
responders that the treatment program would be discontinued. He 
wasn't even going to wait until the program got started.
    We need a commitment on the part of the administration to 
move this forward and to plan. I believe Dr. Howard has done an 
excellent job in these circumstances, of trying to develop a 
good, solid program to provide the continuity of care that is 
needed.
    But, we need certainly a longer-term commitment. I think 
that is going to take the kind of legislation that 
Representatives Maloney and Nadler are going to take--and 
Congressman Towns, you are a co-sponsor also--to move this 
forward and establish a long-term program that will deal with 
this comprehensively.
    It shouldn't have taken that, and it shouldn't have taken 6 
years of non-response to get there, but I think that is really 
what we are faced with, certainly at the present time.
    Mr. Towns. Right. Thank you, very much.
    And, Dr. Eth, I know you have personally treated many first 
responders for mental health conditions. Do you think we have 
adequately met the need.
    Dr. Eth. Clearly, we haven't adequately met the needs. We 
are barely scratching the surface of the needs of those people 
who have chronic conditions.
    As we have heard, PTSD can often be successfully treated if 
the patient is seen early. However, many patients with PTSD 
develop chronic illnesses, and then we are into symptom 
management. And, there is no system in place to deliver that 
kind of care.
    Congressman Nadler quoted President Abraham Lincoln. That 
quotation is the motto of the Department of Veterans Affairs. 
What we need is a system of care for first responders who, like 
our Veterans, were there to protect us and to take care of us 
and deserve the kind of treatment that will persist over the 
years, to make sure that their distress and disability is 
medically treated as best we can.
    Mr. Towns. You know, there has been some media coverage. 
You know, you always get this when we are trying to move 
forward, where they said that some people are faking a mental 
health condition.
    I know that you have treated, of course, many of these 
responders. Do you think that this is a widespread practice? 
Because you get one situation, and they just blow it up, you 
know.
    Dr. Eth. Right. Unfortunately, this issue of faking or 
malingering has been around for a very long time. There was the 
dramatic scene in the movie ``Patton,'' where General Patton 
slapped the soldier who was suffering from combat fatigue, 
because he thought he was a malingerer.
    These are real psychiatric conditions that impose suffering 
on patients, on their family, and deserve the care that we can 
provide. Fortunately, we have the treatments, but we are 
limited because of the stigma associated with these conditions, 
the stigma that is amplified when people are thought to be 
malingering. And, there are delays of care, there is access 
issues. And, the thing is, we do have effective ways to manage 
symptoms.
    Mr. Towns. What do you think needs to be done in Congress? 
What do you think that we should do? And, let me just run down 
the line, very quickly. We don't have a lot of time. So----
    Mr. McHale. Obviously, the team of the World Trade Center 
medical management, in addition to making sure that a 
comparative amount is put into research, as well, for that. And 
I know I, don't mind my health screening put into kind of a 
data base that may help another first responder who may have 
the symptoms that I had, prior to being diagnosed with the 
disease that I have.
    So, a multiple, comprehensive data base that can be used to 
compare each responder's conditions, so that it may help 
another one needing treatment.
    Mr. Towns. Thank you. Right down the line, if there are any 
other comments.
    Dr. Melius. Certainly, as I have said, I think the No. 1 
priority is to make this into a comprehensive program, provide 
the framework through legislation that will ensure that 
everybody who responded at the World Trade Center, worked 
there, who were exposed, including people in the community, can 
receive medical monitoring and get treatment, if needed. And, 
that is a life-long commitment. I think we need to do that 
comprehensively and do that over the long term.
    Second, I think we also need to look at how do we prevent 
some of the outcomes that have occurred. We need to make sure 
that there is adequate protection. My personal belief is that 
OSHA needs to be mandated to provide enforcement action at 
those sites, to ensure that people are properly protected.
    I will add that, in order to do that, we also need research 
in the development of protective equipment.
    Mr. McHale and I were talking before the hearing, and there 
are circumstances that he was working in where there was no 
respirator that is currently available that would have allowed 
him to do his work in a safe manner. He needed to communicate 
with his friends while he was doing that, in a very enclosed, 
tight space, and it was very difficult, and no respirator that 
was currently available, I believe, would have allowed him to 
do that.
    We also know of the communication problems that occurred, 
with the firefighters at the site. So, there is technology that 
needs to be worked on, and we need to invest in that in order 
to protect people.
    So, one, it is a comprehensive solution of medical 
followup. Second, it is prevention and enforcement at the site. 
And then, on the part of EPA and the city Health Department to 
make sure that people in the community are also protected.
    Mr. Towns. Thank you, very much. Thank you. And, run right 
down the line.
    Dr. Eth. Well, Congress and the administration has to honor 
its promise to first responders to deliver the care that they 
need in the long-term way, and we need to expand the number of 
treatment programs available to first responders, so that they 
can get the care.
    Mr. Towns. Thank you.
    Dr. Thorpe. I would like to repeat that very fact, that the 
World Trade Center Medical Monitoring Program and the other 
Centers of Excellence at FDNY and at Bellevue Hospital, these 
are programs that were established with Federal funds. The 
patients who are enrolled in these programs have an expectation 
to a certain commitment to their long-term monitoring and care. 
And so, it is really that these are federally funded programs 
that can't be dismantled mid-mission.
    This would also be true for the World Trade Center Health 
Registry, which is also federally funded. These were 
established for long-term care, and we need to ensure that the 
long-term care is provided and not being withdrawn mid-mission.
    Mr. Towns. Right, thank you.
    Ms. Bascetta. On a smaller scale, holding HHS accountable 
for implementing GAO's recommendations. That is very important. 
And, for ensuring that, over the long term, the money is there 
to do the screening and monitoring that is required for 
responders.
    And, on a broader scale, exercising your oversight 
authority to take a look at the NRP, to make sure that those 
relationships for the National Response Plan that are in place 
go to prevent these kinds of situations and to ensure that 
where they can't be prevented, that the health effects are 
taken care of after a disaster is very important.
    Mr. Towns. All right. Thank you, very much.
    And, I yield now to my colleague, Congresswoman Carolyn 
Maloney.
    Mrs. Maloney. And, I thank you again, Ed, for having this 
hearing, and I thank Mr. McHale for his service, and all of you 
for your services in your own professional ways. It is deeply 
appreciated.
    First off, I want to thank Cynthia Bascetta, the Director 
for Health Care at the U.S. Government Accountability Office, 
and talk about the really extraordinary work of the GAO that 
has led us to the point today.
    They have issued five different reports that Ed Towns and I 
have requested, and others. They were presented to the 
Oversight and Government Reform Committee, on which we both 
serve.
    And, over the last 3 years, they have been absolutely 
invaluable to this committee in informing our work on this 
topic. So, I have a series, first of all, for Director 
Bascetta.
    Regretfully, there have been a series of articles recently 
that I would like to put into the record, with official 
responses from our Senators and Jerry and myself and many 
others. So, in the New York Times.
    There is one today in the New York Post that questions 
whether or not that there really is a problem. Jerry and I see 
sick people every day, who come to see us in our homes and in 
our offices, and we know first-hand the crisis.
    But, there have been some press reports that have attempted 
to cast doubt by questioning the exact extent of the health 
problems arising from the deadly toxins at Ground Zero.
    In your opinion, Ms. Bascetta, as part of the independent, 
non-partisan Government Accountability Office, do you have any 
doubt that tens of thousands of people served as responders and 
rescue/recovery and clean-up workers and construction workers, 
in the aftermath of the World Trade Center disaster, and that 
these responders were exposed to numerous physical hazards, 
environmental toxins and psychological trauma.
    Ms. Bascetta. No, I certainly don't have doubt.
    Mrs. Maloney. Now, do you have any doubt that those 
physical hazards, environmental toxins and psychological trauma 
could potentially cause serious, long-term health effects in 
these responders?
    Ms. Bascetta. No doubt at all. And, our first report, in 
September, had four and a half pages of articles that were 
written and published in peer-reviewed journals from the time 
of the attack through September 2004, and the body of 
literature has grown since then.
    Mrs. Maloney. Without objection, may we place that report 
in the record, Chairman.
    Mr. Towns. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Maloney. And, do you have any doubt that currently 
thousands of responders are sick, some of them very seriously 
sick, because of the exposure they endured during their work in 
the aftermath of 9/11.
    Ms. Bascetta. No doubt. I believe HHS's own draft plan 
notes that there are thousands of sick responders.
    Mrs. Maloney. And last, should the government be doing more 
to help the sick heroes and heroines of 9/11.
    Ms. Bascetta. Absolutely.
    Mrs. Maloney. Thank you, Director Bascetta.
    And so, the Director for Health at the U.S. Government 
Accountability Office, well-known as the independent 
congressional watchdog, has no doubt that the health effects of 
9/11 are real and serious, and that they are affecting 
thousands of people, and that our government should be doing 
much more to help. And, I hope that everyone hears this message 
loud and clear. And, I think that this is a very important part 
of your hearing today, Congressman Towns.
    And, I would like to thank Dr. Thorpe for her work with the 
New York City Health Department and to ensure that mental 
health services are available.
    And, I want to know why did you close the Registry.
    I will tell you, I know there are 71,000. I know that every 
congressional district is in it, and every State in the Union. 
But I, to this day, have people who come up to me either on the 
street, my congressional office, my home, and say, ``You know, 
after 9/11, I wasn't sick. Now, I am sick. It just happened.''
    And so, health problems are arising. And, as we know from 
Dr. Melius's testimony and from Dr. Eth's, a lot of these 
things are going to keep coming up further down the road. And, 
I personally don't think the Health Registry should be closed. 
I think that people who may die today, or develop the asthma 
today, and were there--you know, some will say to me, ``You 
know, I was just there on 9/11 and 9/12,'' and I will say, 
``Well, that is the worst 2 days. No wonder you have a 
problem.''
    But why did we close it? Why aren't we making adjustments 
for the people that are still sick----
    Dr. Thorpe. Thank you, Congresswoman----
    Mrs. Maloney [continuing]. Or becoming sick.
    Dr. Thorpe [continuing]. Maloney.
    The purpose for closing the World Trade Center Health 
Registry is not one to shut out the individuals who later 
developed illness in any fashion. The purpose of closing the 
Registry after a certain period of enrollment was purely for 
validation of a similar time period, where people who did 
enroll were telling the information that they had on their 
exposures within a short, finite time period.
    One standard challenge for epidemiologic studies is that 
you combine the individuals who described their experiences 
early on, at a date after an event, and you combine that with 
persons who describe their experience years later, that the 
descriptions change over time, or may change over time, and 
could call into question the very purpose of the tracking of 
the Registry.
    All individuals who are developing any late-onset symptoms 
should be in a World Trade Center of Excellence program, where 
they can be evaluated. And that data and that information is 
very important.
    This was not a disease registry. This was an exposure 
registry. So, the focus was getting a clean snapshot at a 
finite period of time, that may track the effects in those 
potentially highly exposed people. This is part of the picture 
and is an important component.
    And similar, the different component of the health profile 
of people who were available in the clinical centers at Mount 
Sinai, at Bellevue and the Fire Department, are another 
profile.
    Mrs. Maloney. But, following up on your statement that it 
is an exposure registry, I think it should certainly be limited 
to those who were exposed, but if there is no doubt that a 
firefighter or someone else was exposed on September 11th or 
12th or the 13th were fine, and then all of a sudden they are 
sick 5 years later, they should be part of it.
    And, as you know, the monitoring program at Mount Sinai and 
at Bellevue and Queens and some of the other areas that are 
there, they are very limited. As you know, they are limited 
only to the responders. They do not include the area residents 
who were exposed. They do not include the volunteers. They do 
not include the school children which, according to your 
report, are now coming up with increased asthma. So, I think we 
should look at re-opening it.
    But I would like to talk to Dr. Eth and Dr. Melius. I know 
my time is coming to an end.
    And, you were deeply involved, actually representing labor 
in the consortium that really worked for 6 years now, through 
various routes, to create the 9/11 Health and Compensation Act, 
which Mr. Nadler and Mr. Towns and I will be introducing, along 
with Charlie Rangel and others, this week.
    If passed by Congress and signed into law by the President, 
would this legislation allow for the monitoring and treatment 
of all those affected, especially those now not covered at all.
    And, I regret, Mr. McHale, that you had trouble getting 
covered, but your story is like so many other responders, some 
of them I see in the room, who were turned down for treatment.
    Would this comprehensive bill treat these people?
    Dr. Melius. Absolutely. It includes all Federal workers, by 
statute, into the bill. And, it also includes provisions for 
what we refer to as a national program for covering people 
outside of the New York City metropolitan area. So, they would 
be covered.
    It also provides for the development and naming of new 
centers, what we are referring to as ``Centers of Excellence,'' 
that provide clinical care. So, for example, Saint Vincent's 
would become a Center of Excellence, and it would become part 
of that program. Certainly, as they have described their 
efforts so far, they would, you know, I believe that it would 
qualify under the way the legislation is written, at least my 
knowledge of it.
    So, I think it absolutely would provide the framework for 
covering everybody who is now having difficulty getting 
covered. It expands the coverage to include residents, workers 
who also had, you know, very significant exposures cleaning out 
offices and buildings, people in their homes and apartments, 
who were exposed, school children. So, I think it really 
comprehensively deals with everyone who was potentially 
affected, and it will provide them with the monitoring, the 
screening, and the health treatment that they deserve.
    Mrs. Maloney. So, it doesn't rely on what hat you were 
wearing that day, but the extent of your exposure.
    Now, since there are some of these articles that are saying 
people aren't sick, or maybe they weren't sick from 9/11, how 
is that treated in the bill? I understand that there is very 
high medical standards written into the bill, because I was 
there when we wrote it and that the medical profession would 
have certain criteria that they develop that is related to 9/11 
and you have to be certified that you had that.
    Could you go through how people would be able to be 
treated, so that there would be no abuse, but that it would be 
there for the people who truly warrant it.
    Dr. Melius. Certainly, to be initially eligible for the 
screening or for monitoring, the examinations, one has to have 
some evidence that they were exposed. And, there are criteria 
that have already been developed, as far as the programs that 
relate to the type of work that people do, did at the time and 
the time period of that work.
    And then, similar criteria would be developed for the other 
groups. The program at Bellevue Hospital is already working on 
that, meeting with community groups, labor groups, others that 
are involved there, that aren't covered by the current 
responders' programs, and develop those criteria.
    So, those would need to be developed. They would be, you 
know, promulgated, as far as the program, by the Federal 
Government, with significant input from the outside groups, 
affected groups.
    And second, there are criteria for how people would be--
what conditions would be treated? Currently, there is a list of 
conditions that include respiratory, upper respiratory, mental 
health conditions, gastrointestinal conditions, that have been 
found in significantly higher rates in the responders. That 
list can be expanded, additional conditions added.
    And, a similar list, based on the initial list, would be 
developed for people who living in the community, people that 
worked in other areas in ways that are not currently eligible 
for the program. Again, that would be done through a public 
process, in a timely fashion, so that people would be able to 
receive treatment, but will be treated for World Trade Center-
related conditions.
    Mr. Towns. All right.
    Mrs. Maloney. I thank the Doctor, and my time has expired.
    Mr. Towns. Yes.
    Mrs. Maloney. Thank you, all the panelists.
    Mr. Towns. Right. Let me yield now to Congressman Nadler.
    Mr. Nadler. Thank you, thank you, Mr. Chairman.
    Let me begin by following up on the first question that 
Congresswoman Maloney asked. This morning's New York Post says 
the following: ``a searing New York Times piece suggests that 
an activist clinic''--meaning Mount Sinai--``egged on by 
opportunistic pols and naive (at best) journalists, has blown 
health fears way out of proportion. Bottom line: There is scant 
reliable scientific evidence to link 9/11's toxic plume to any 
serious, chronic health problems. . . . It casts doubt on the 
severity of even the short-term fallout. . . . There is scant 
evidence that any lives were endangered.''
    Ms. Bascetta and then Dr. Thorpe, could you comment on 
those assertions?
    Ms. Bascetta. It is a shame that was published. You know, 
as I said, I----
    Mr. Nadler. Well, it is in the Post, so--[laughter.]
    Ms. Bascetta. Well, even the New York Times article, if you 
read it closely, didn't say there were no health effects. There 
was more argument around the aims of----
    Mr. Nadler. Well, that is my next question, on the New York 
Times article.
    Ms. Bascetta. OK.
    Mr. Nadler. I will come to that.
    Dr. Thorpe, do you have any comment on this? I mean, on the 
observation that there were no long-term health effects, no 
evidence of long-term health effects, scant evidence of short-
term health effects.
    Dr. Thorpe. I think the consistent--one of the things that 
epidemiologists look for by trying to understand the exposure, 
causes of disease, is the consistency of the literature. And, 
there is growing consistency of literature across the studies, 
from the medical monitoring programs, from the World Trade 
Center Health Registry, and elsewhere, on physical health 
effects and mental health effects among the rescue and recovery 
workers.
    Mr. Nadler. So, would you both agree or disagree than any 
competent, honest epidemiologist would say this is nonsense?
    Ms. Bascetta. Yes, I would agree.
    Dr. Thorpe. I think that would be different scientists who 
analyze data differently, but I think most scientists would 
look at the growing literature and say that there are clear 
health ramifications from 9/11.
    Mr. Nadler. Thank you. Now, as we said that, I read--and 
obviously you have read the New York Times article, since you 
just referred to it--I was going to ask you if you had. I read 
that article very carefully on Friday.
    Would it be fair to say, because this is what I found 
there, that one of the key points, really, is that to the 
extent that there is some doubt in the literature, or doubt as 
to control groups, it is because nobody--neither the Federal, 
State, or city governments--did adequate studies in the first 9 
months, so you don't have a base control, and that is the real 
problem, to the extent there is a real problem.
    Ms. Bascetta. Well, it is a contributing factor to the 
difficulties in doing the research. But, you know, I have a 
different response.
    One of the--the Fire Department is really the gold 
standard. They have baseline data on their workers, and it is 
absolutely clear from their studies that the health effects are 
simply not questioned.
    Second, as Dr. Thorpe has said, there are well-accepted 
epidemiological dictates that involve looking for excess rates 
of disease in populations where, you know, we don't have very 
good medical records, you don't know what their baseline health 
was before, so it is more complicated. But, you can certainly 
document, and it has been documented, that respiratory effects, 
asthma, PTSD, you know, do appear to be diagnosed at rates that 
are higher than we would expect.
    Mr. Nadler. And, are you familiar with the Mount Sinai 
study?
    Ms. Bascetta. I am.
    Mr. Nadler. Would you say that is a good, competent study?
    Ms. Bascetta. It was published in a well-thought-of peer-
reviewed journal. I would have no reason to doubt that their 
techniques were in question.
    Mr. Nadler. So that the aspersions, the comments, and the 
loathage of the Mount Sinai researchers here would have no 
foundation, in your opinion.
    Ms. Bascetta. I wouldn't weigh them in my assessment of the 
literature. I would certainly include some in any view of it.
    Mr. Nadler. Thank you.
    Dr. Thorpe, in your testimony--first of all, you say, ``We 
estimate that it requires at least $4.5 million per year to 
maintain the Registry for the remainder of its 20-year life.''
    Why only 20 years? Shouldn't we maintain this Registry for 
the balance of the lives of all of the people involved in it.
    Dr. Thorpe. Twenty years is the commitment that we gave to 
participants who enrolled. That does not in any way negate the 
potential need for this Registry to move forward beyond 20 
years, if we are looking at long-term health ramifications, 
development of cancers with long latency periods, or mortality. 
There are many reasons why it may----
    Mr. Nadler. And it----
    Dr. Thorpe [continuing]. Serve for a longer period.
    Mr. Nadler. And, since the basic purpose of the Registry is 
for research and for knowledge, as you said a few minutes ago, 
that would seem to indicate that we should keep the Registry 
open much longer.
    Dr. Thorpe. Yes, depending on the findings of the first run 
of the Registry, yes.
    Mr. Nadler. OK, thank you.
    I have a second question. You referred in your testimony 
quite often to the asthma study found that 3.6 percent of 
previous asthma-free rescue and recovery workers reporting 
asthma as 12 times the normal rate in the general population. 
Further on, you refer to findings in the Fire Department, 
showing a higher than normal--the problem of health problems. 
These studies demonstrate the need for continued monitoring and 
care of exposed workers, etc.
    So clearly you and Ms. Bascetta, both, and Dr. Eth, with 
respect to mental health conditions, you say clearly that there 
is more than ample evidence of heightened rates of all kinds of 
pathologies, as a result of the exposure to these toxins.
    Dr. Thorpe. There is a lot of evidence on the widespread 
experience of respiratory symptoms among the people who 
responded to the World Trade Center site as a volunteer or a 
worker. There is widespread evidence of long-term mental health 
implications. And, I think there are still a lot of unknowns.
    Mr. Nadler. OK.
    Dr. Thorpe. It is still unknown----
    Mr. Nadler. There is a lot of evidence for what you said.
    Now, the State and the city and the Port Authority, as we 
have heard from Mr. McHale and others, have been contesting 
causation on all kinds of Workers Comp and other claims. Now, I 
observed before that we know that, as a result of Hiroshima and 
Nagasaki, there were wildly increased incidents of cancer in 
the exposed population. But, you couldn't prove that an 
individual case of leukemia would not have otherwise occurred, 
even if it is 90 percent would not otherwise have occurred--
even if 90 percent of the people who came down with leukemia in 
Hiroshima would not have done so but for the atomic bomb, and 
10 percent would have, the statistic is, you couldn't prove 
which was which.
    So, is it fair, is it proper for these government agencies 
to be denying claims on the basis that you can't prove that 
your case of asthma, your case of sarcoidosis, was caused by 
this, even though we know that 98 percent would not have 
occurred but for this.
    Dr. Thorpe. I can't speak to these individual cases. What I 
can speak to is the difficulty and the importance of 
understanding the relationships between the level of exposure 
and the development of a disease. Heart disease and cancer are 
common conditions that are going to exist and that are going to 
occur, independent of whether or not the World Trade Center 
attack----
    Mr. Nadler. Occurred.
    Dr. Thorpe [continuing]. Has resulted.
    Now, the difficulty in identifying whether or not cancers 
or heart disease deaths are occurring at a greater rate as a 
result of these events----
    Mr. Nadler. Or asthma or sarcoidosis or----
    Dr. Thorpe [continuing]. Is a very important endeavor, but 
it is--and because there are so many background cases----
    Mr. Nadler. But my question----
    Dr. Thorpe [continuing]. It is a challenge.
    Mr. Nadler. It is a challenge, but is there any way--well, 
my real question is, is government asking something impossible 
and unfair, when it says to a firefighter who was in the peak 
of condition and suddenly can't breathe any more, prove this 
was World Trade Center-related.
    Dr. Thorpe. I can't speak to these single conditions, 
Again, what I can speak to is----
    Mr. Nadler. I mean, a health condition. Can you assume that 
most of these cases are because that--is it unfair ethically, 
never mind legally, is it not fair, the requirement to ask that 
kind of proof? Is it not realistic to require it, knowing that 
most--let me re-phrase the question.
    Is it the case that most with sarcoidosis, these lung 
diseases, most people who are coming down with it who were 
exposed probably would not have, and therefore, it is unfair to 
ask the specific proof in each case.
    Dr. Thorpe. I am having a difficult time answering your 
question----
    Mr. Nadler. OK.
    Dr. Thorpe [continuing]. Because you are talking about many 
different conditions together in one, and I think each 
condition merits its own individual evaluation.
    Mr. Nadler. Thank you.
    Ms. Bascetta, have you seen any evidence that the Federal 
Government is doing anything to expand the services that it 
provides beyond responders to residents, office workers, school 
children, other people who were exposed and who, as a result of 
that exposure, are sick or may get sick in the future.
    Ms. Bascetta. I have not looked into that. There is another 
team at GAO that has done work on ambient air. They have 
responsibility for EPA, and I could take a look at that report 
and have it submitted to the record.
    Mr. Nadler. I would----
    Ms. Bascetta. I don't believe that it specifically 
addresses the problems of those groups.
    Mr. Nadler. Well, I would appreciate if you would, because 
I have seen no evidence that the Federal Government has done 
anything with response to anybody other than the specific first 
responders.
    I think my time has almost expired. Let me just thank all 
of you for your services in various lines, in particular Dr. 
Melius, for your help in developing the legislation which we 
are introducing.
    I just want to say that I wasn't aware that quote that I 
always use from President Lincoln was the motto for the 
Veterans Administration. But, it is fitting that it is. And, I 
think that this Federal Government, State government, city 
government have been incredibly deficient, incredibly guilty in 
not meeting the moral debt that we all owe to the first 
responders and to the other victims of this terrorist attack on 
the United States.
    Mr. Towns. Thank you, very much, Congressman. And, let me 
just say that I will thank all of you for your testimony.
    But, I cannot let this moment pass without saying that, 
when you look at the clinics, look at the Borough of Brooklyn, 
which has 2.5 million people in it. And, as I remember that 
day, as I saw the second plane hit, standing over by the Navy 
Yard, that I saw that dark cloud coming over. And of course, I 
am sure that it affected people in Brooklyn. And, there are no 
ifs, ands, and buts about it.
    So, I am hoping that somewhere along the line, that 
Brooklyn would get one of these clinics. And the reason I say 
that is I really, really mean it, that there are people in 
Brooklyn that have never been to Manhattan, have never been to 
Manhattan. So, it points out how serious it is to get a clinic 
in Brooklyn. You know, I have had the opportunity to talk to 
people over the years, who have said to me--I am talking about 
adults--that I have never gone to Manhattan. So which means 
that we need to establish something in Brooklyn where those 2.5 
million people reside.
    So, thank you, again, all of you, for your testimony, 
because as you know, as we look at the first responders, we 
also have to look at the residents, as well. So, thank you for 
your testimony. We look forward to working very closely with 
you in the days and months ahead.
    You can see we are rushing to get to another meeting, and 
that is the reason why we are sort of being brief here. So, 
thank you, again, for your testimony.
    The hearing is now adjourned.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
